MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies
of appellate’s MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS, via e-mail
and USPS Priority mail, postage prepaid, this June 30th 2020. Pursuant to Sup. Ct. R.
29(5)(c) and 28 U.S.C. § 1746, declaration is included herein.
[See Attached Service List]

JACQUELINE BIDANICK

/y

v

Pro Se

Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com
Date: October 15th 2020
Service list
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston,
South Carolina
29407

8

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

i

Oath
State of South Carolina
I, Jacqueline Pidanick , after being first duly sworn according to law, do hereby
make oath, verify, state, and affirm, pursuant to the penalties of perjury under the laws
of the United States, and by the provisions of 28 USC § 1746, that all statements
included in the above and foregoing CERTIFICATE OF SERVICE for PETITION FOR
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS, are true and correct
representations, to the best of my knowledge, information and belief.
Dated: October 15th 2020

Thank yo
Jacqueline Pidanick
262 old Bridge dr
Bluffton, South Carolina
29910
...........\
V kD u\

My Commission Expires
June 15,2027

fits* \ \
V♦ V Pn©v A?f
♦

9

\

\fpUTH

